       DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203
                                                                           (617) 565-2684
December 16, 2010

Report Number: A-01-10-02507

Mr. Angelo McClain
Commissioner
Department of Children and Families
24 Farnsworth Street
Boston, MA 02210

Dear Mr. McClain:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Massachusetts’ Title IV-E Adoption Assistance
Subsidy Payments for Children 18 Years or Older for the Period October 1, 2005 Through
September 30, 2008. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov

If you have any questions or comments about this report, please do not hesitate to call me, or
contact George Nedder, Audit Manager, at (617) 565-3463 or through email at
George.Nedder@oig.hhs.gov. Please refer to report number A-01-10-02507 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 - Mr. Angelo McClain


Direct Reply to DDS Action Official:

Mr. Richard Borseti
Grants Management Officer
Office of Grants Management
Administration for Children and Families
U.S. Department of Health and Human Services, Region I
JFK Federal Building
Room 2000
Boston, MA 02203
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL


 REVIEW OF MASSACHUSETTS’
     TITLE IV-E ADOPTION
ASSISTANCE SUBSIDY PAYMENTS
  FOR CHILDREN 18 YEARS OR
    OLDER FOR THE PERIOD
  OCTOBER 1, 2005 THROUGH
     SEPTEMBER 30, 2008




                      Daniel R. Levinson
                       Inspector General

                        December 2010
                        A-01-10-02507
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                              EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title IV-E of the Social Security Act, the Department of Health and Human
Services, Administration for Children and Families (ACF), administers the foster care
and adoption assistance programs. For children who meet Title IV-E requirements, ACF
provides the Federal share of States’ costs for subsidy payments.

In Massachusetts, the Department of Children and Families (the State agency) is solely
responsible for the Title IV-E program. A child is either eligible for a federally funded
Title IV-E adoption subsidy payments or state funded payments. The determination is
made by the State agency prior to the child's adoption becoming legalized. For a child
who is eligible for Title IV-E adoption subsidy payments, a negotiation of benefits occurs
between the identified pre-adoptive family and the State agency. Subsidy payments are
terminated when the child has attained the age of 18. However, the State may extend
subsidy payments to the age of 21 with a letter from a professional provider noting the
child has a mental or physical handicap. The State agency consolidates the negotiated
benefits and submits Quarterly Reports of Expenditures and Estimates (Forms
ACF-IV-E-1) to ACF to claim Federal funding.

Our review covered 272 children who received adoption subsidy payments past the age
of 18 during the period October 2005 through September 2008 and whose adoption costs
were claimed for Federal reimbursement under Title IV-E.

OBJECTIVE

Our objective was to determine whether the State agency complied with Federal
eligibility requirements for claiming children over the age of 18.

SUMMARY OF FINDING

The State agency complied with the requirements for claiming adoption subsidy
payments for 249 of the 272 children over the age of 18. However, the State agency
incorrectly claimed adoption subsidy payments for 22 children that did not have a letter
from a professional provider documenting a mental or physical handicap. In addition, the
State agency claimed adoption subsidy payments for one child past the age of 21. As a
result, the State agency’s Federal claim was overstated by $109,198. These deficiencies
occurred because the State agency did not follow its established procedures.




                                            i
RECOMMENDATIONS

We recommend that the State agency:

    •   make a financial adjustment of $109,198 on its next Federal quarterly
        expenditure report for the children identified as ineligible and

    •   ensure that its procedures are followed.

STATE AGENCY COMMENTS

In comments to our draft report, the State agency acknowledged that incorrect claims
were submitted on behalf of 23 children. The State Agency’s comments are included in
their entirety as Appendix B.




                                            ii
                                            TABLE OF CONTENTS

                                                                                                                          Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Title IV-E Adoption Assistance Program .....................................................1
              Massachusetts’ Title IV-E Program ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          AGE REQUIREMENTS ...........................................................................................3

          UNALLOWABLE SUBSIDY COSTS CLAIMED
           FOR CHILDREN OVER THE AGE OF 18 ..........................................................3

          RECOMMENDATIONS ...........................................................................................4

          STATE AGENCY COMMENTS ..............................................................................4

APPENDIXES

          A - TITLE IV-E ADOPTION SUBSIDY COSTS CLAIMED FOR 23
              CHILDREN

          B – STATE AGENCY COMMENTS




                                                               iii
                                   INTRODUCTION

BACKGROUND

Title IV-E Adoption Assistance Program

Pursuant to Title IV-E of the Social Security Act (the Act), the Department of Health
and Human Services, Administration for Children and Families (ACF), administers the
foster care and adoption assistance programs. The adoption assistance program helps
States encourage the adoption of children with special needs and the Federal
Government shares in the States' costs of adoption assistance payments for eligible
children.

ACF provides funds to States to facilitate the timely placement of children, whose
special needs or circumstances would otherwise make it difficult to place, with adoptive
families. For children who meet Title IV-E adoption assistance requirements, funds are
available for a one-time payment to assist with the costs of adopting a child as well as
for monthly subsidy payments to adoptive families to assist with the care of the eligible
child.

The adoption assistance program provides Federal matching funds of 50 to 83 percent,
depending on the state's per capita income. The Federal share of subsidy costs is based
on each State’s Federal rate for Title XIX (Medicaid) expenditures. The Federal share
of Massachusetts’ subsidy costs is 50 percent.

Massachusetts’ Title IV-E Program

In Massachusetts, the Department of Children and Families (the State agency) is solely
responsible for the Title IV-E program. A child is either eligible for a federally funded
Title IV-E adoption subsidy payments or state funded payments. The determination is
made by the State agency prior to the child's adoption becoming legalized. For a child
who is eligible for Title IV-E adoption subsidy payments, a negotiation of benefits occurs
between the identified pre-adoptive family and the State agency. Subsidy payments are
terminated when the child has attained the age of 18. However, the State may extend
subsidy payments to the age of 21 with a letter from a professional provider noting the
child has a mental or physical handicap. The State agency consolidates the negotiated
benefits and submits Quarterly Reports of Expenditures and Estimates (Forms
ACF-IV-E-1) to ACF to claim Federal funding.




                                            1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal
eligibility requirements for claiming children over the age of 18.

Scope

We reviewed adoption assistance case records for 272 children who received adoption
subsidy payments past the age of 18 during the period October 2005 through September
2008, for the 1,500 highest claims paid during FY 2006 (October 2005 through
September 2006). We limited our consideration of the Sate agency’s internal controls to
obtaining an understanding of the process used to determine a child’s eligibility upon
turning the age of 18.

We performed our field work at the State agency in Boston, Massachusetts in August and
September 2010.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws and regulations and ACF program and policy
        announcements;

   •    reconciled total adoption subsidy payments that the State agency claimed in FY
        2006, 2007, and 2008;

   •    identified 272 children who received adoption subsidy payments past the age of
        18 during the period October 2005 through September 2008;

   •    determined the total dollar value of all Title IV-E adoption subsidy payments for
        services provided to children that were ineligible to be claimed past the age of 18
        and 21 respectively (Appendix); and

   •    discussed our results with State officials and Regional ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.




                                             2
                       FINDINGS AND RECOMMENDATION

The State agency complied with the requirements for claiming adoption subsidy
payments for 249 of the 272 children over the age of 18. However, the State agency
incorrectly claimed adoption subsidy payments for 22 children that did not have a letter
from a professional provider documenting a mental or physical handicap. In addition, the
State agency claimed adoption subsidy payments for one child past the age of 21. As a
result, the State agency’s Federal claim was overstated by $109,198. These deficiencies
occurred because the State agency did not follow its established procedures.

AGE REQUIREMENTS

Section 473(a)(4)(A) of the Act states that “no payment may be made to parents with
respect to any child who has attained the age of eighteen (or, where the State determines
that the child has a mental or physical handicap which warrants the continuation of
assistance to the age of twenty-one).”

The State agency determines that a child has a mental or physical handicap by requesting
the adoptive family to provide a letter from a professional provider noting the child’s
current mental or physical handicaps.

UNALLOWABLE SUBSIDY COST CLAIMED
FOR CHILDREN OVER THE AGE OF 18

The State agency incorrectly claimed adoption subsidy payments for 23 children past the
age of 18. Specifically, the State agency claimed adoption subsidy payments for:

   •   22 children past the age of 18 that did not have a mental or physical handicap
       documented, for a total Federal share of $106,566. For example, one child’s case
       records did not show evidence of a letter from a professional provider noting a
       physical or mental handicap upon reaching the age of 18. However, the State
       agency continued to claim the child for 19 months after the child turned 18, for a
       total Federal share of $5,402.

   •   1 child past the age of 21 where the State agency continued to claim adoption
       subsidy payments for 6 months after the child turned 21, for a total Federal share
       of $2,632.

As a result, the State agency’s Federal claim was overstated by $109,198. (See Appendix
for details on the 23 children.)




                                            3
RECOMMENDATIONS

We recommend that the State agency:

    •   make a financial adjustment of $109,198 on its next Federal quarterly
        expenditure report for the children identified as ineligible and

    •   ensure that its procedures are followed.

STATE AGENCY COMMENTS

In comments to our draft report, the State agency acknowledged that incorrect claims
were submitted on behalf of 23 children. The State agency indicated that its procedures
for both verifying the presence of required conditions related to Title IV-E eligibility and
for claiming Adoption Assistance costs to the Title IV-E program needed improvement.
The State agency stated that a more rigorous quality assurance review has been
implemented. The State Agency’s comments are included in their entirety as Appendix
B.




                                             4
APPENDIXES
       APPENDIX A - TITLE IV-E ADOPTION SUBSIDY COSTS CLAIMED FOR 23 CHILDREN

                                        22 CHILDREN OVER THE AGE OF 18

                                                                                    Federal
                                                                     Date of       Share of
                                                                 Discharge From     Subsidy
                       Error           Date of    Date of 18th      Adoption      Costs at Age
                      Number            Birth      Birthday         Assistance    18 or Older
                         1             2/6/1987     2/6/2005        8/31/2006      $      5,817
                         2           10/11/1989   10/11/2007        6/15/2009             5,402
                         3            2/19/1988    2/19/2006        6/30/2007             6,894
                         4            8/14/1990    8/14/2008        6/15/2009             3,026
                         5            6/24/1988    6/24/2006        6/15/2009             8,769
                         6            7/25/1987    7/25/2005        5/30/2007             8,084
                         7            10/5/1985    10/5/2003        8/30/2006             3,983
                         8            5/25/1988    5/25/2006        5/25/2008             8,590
                         9            2/13/1989    2/13/2007        2/28/2009             7,653
                        10            4/12/1990    4/12/2008        4/30/2008               129
                        11            3/24/1989    3/24/2007        6/30/2007               922
                        12            4/16/1989    4/16/2007        6/15/2009             8,064
                        13            8/10/1989    8/10/2007        6/30/2008             3,310
                        14            7/15/1988    7/15/2006        6/15/2009            10,838
                        15            3/10/1990    3/10/2008        3/31/2008               137
                        16           11/25/1989   11/25/2007       11/25/2008             3,704
                        17             1/9/1990     1/9/2008        2/28/2009             4,223
                        18            4/21/1989    4/21/2007        3/31/2008             3,447
                        19            3/13/1989    3/13/2007        6/15/2009             8,330
                        20            11/3/1986    11/3/2004       10/31/2006             4,090
                        21             7/7/1989     7/7/2007        9/15/2007               544
                        22           11/21/1989   11/21/2007        1/31/2008               609
                       Total                                                       $ 106,566 1


                                            1 CHILD OVER THE AGE OF 21

                                                                                     Federal
                                                                     Date of        Share of
                                                                 Discharge From      Subsidy
                       Error          Date of     Date of 21st      Adoption      Costs at Age
                      Number           Birth       Birthday         Assistance    21 or Older
                         1           3/24/1987     3/24/2008        9/15/2008      $      2,632
                       Total                                                       $      2,632


1
    Amount rounded to the nearest dollar.
                                       APPENDIX B - STATE AGENCY COMMENTS 

                                                                                                                   Page 1 ofl
                                                   Commonwealth of Massachusetts
                                            Executive Office of Health and Human Services
                                     D'e partment of Children and Families
                                                    24 Farnsworth Street, Boston, MA 02210
                                          Tel. 617-748-2000 ~ F 617-261-7435 ~ www.state.ma.us/dcf

  Deval L. Patrick
    Governor
         *
 Timothy P. Murray
Lieutenant Governor
         *
JudyAnn Bigby, M.D.
     Secretary
         *
  Angelo McClain
   Commissioner                                                December 6, 201 0

         Mr. Michael J. Armstrong 

         Regional Inspector General for Audit Services - Region I 

         John F Kennedy Federal Building 

         Room 2425 

         Boston, MA 02203 


        Report Number: A-01-1 0-02507
        Review of MA Title IV-E Adoption Assistance Subsidy Payments for Children 18 years or Older for the Period October 1, 2005
        through September 30, 2008

         Dear Mr. Armstrong:

        MA Department of Children & Families (MA DCF)is in receipt of the draft report on the audit referenced above. Departmental staff
        have reviewed the report and submit the following as our comments to the recommendations included in this report.

        MA DCF acknowledges that incorrect claims were submitted on behalf of 23 children, all over the age of 18 during the audit period
        October 2005 - September 2008. The inclusion of these incorrect claims to the federal Title IV-E Adoption Assistance (M)
        program represents a gap in our internal controls and a need to improve and refine the procedures for both verifying the presence
        of required conditions related to Title IV-E eligibility and for claiming M costs to the Title IV-E program.

        During the period under review, DCF submitted Title IV-E adoption assistance claims of $76.9M on behalf of approximately 5,000
        children per quarter. The $109,198 of federal reimbursement submitted on behalf of the 23 children age 18 or older represents
        only 0.14 of a percent of the total dollars claimed during the period under review.

        Although the audit results reveal an accuracy rate of 99.86%, the review did identify some areas where existing processes and
        procedures - both manual and automated - need improvement. DCF has implemented many of these improvements already and
        has also implemented a more rigorous quality assurance review.

        Please refer any questions to Ellen Finnegan, MA DCF at 617-748-2069.

        Sincerely,




        Angelo McClain, PhD, LlCSW 

        Commissioner, MA DCF 


        Cc: 	        Virginia Peel, General Counsel, MA DCF 

                     Mary Gambon, Asst Commissioner, MA DCF 

                     Jennifer MacBlane, Senior Consultant, PCG 

                     Barry Kroenig, Audit Liaison, MA DCF 

                     Michelle McKeen, Revenue Manager, EOHHS 

                     Ellen Finnegan, CFO, MA DCF 





                                     up a tmg Ch Id                   Str ngt      nmg Famlll
